BECKER GALLAGHER
Briefs

and

DoNNA
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in Richard Baatz, et al. v. Columbia Gas
Transmission, LLC, were sent via Three Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Three Day Service and e-mail to the following parties
listed below, this 8th day of October, 2019:
Paul K. Stockman
Kazmarek Mowrey Cloud Laseter LLP
One PPG Place, Suite 3100
Pittsburgh, PA 15222
(404) 333-07 52
pstockman@kmcllaw.com
Jodie Herrmann Lawson
McGuire Woods LLP
201 N. Tryon Street, Suite 3000
Charlotte, NC 28202
(704) 343-2000
jlawson@mcguirewoods.com
Alexander M. Madrid
McGuire Woods LLP
260 Forbes Avenue, Suite 1800
Pittsburgh, PA 15222
(412) 667-6000
amadrid@mcguirewoods.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

I www.beckergallagher.com

I 8790 Governor's Hill Drive
Suite l 02

I

Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E

Washington, DC 20005
1

A.

J. WOLF, J.D.
KERSHNER, J.D.

Ricky L. Ferrara
Counsel of Record
2077 E. 4th Street, 2nd FL
Cleveland, OH 44115
(216) 816-0707
Rick@ohiolegalrep.com
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 8, 2019.

Becker Gallagher Legal Publis in g, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary
[seal]

JULIE ANNE l(ERSHNER

Notary Publlc, State of Ohio
My Commission Expires
February 21, 2023

